OIG Audit Report

United States Immigration and Naturalization Service, United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with the Orleans Parish Criminal Sheriffs Office, New Orleans, Louisiana 
Office of the Inspector General



Executive Summary


The Office of the Inspector  General, Audit Division, has completed an audit of the Orleans Parish Criminal  Sheriff’s Office (OPCSO) Intergovernmental Service Agreements (IGAs) with the  Immigration and Naturalization Service (INS) and the United States Marshals  Service (USMS).  The IGA with the INS  stipulates a rate of $46 per jail day1  for the long-term detention and care of aliens.   The INS also has a $21 per jail day rate for airport cases, which  are defined as stays 7 days or less in detention.  The USMS rate is $45 per jail day for the  housing, safekeeping, and subsistence of adult male and female federal  prisoners.  The Bureau of Prisons does  not have an IGA with the OPCSO but uses the existing USMS agreement at $45 per  jail day.  Under the 1992 INS and 1984  USMS agreements, the OPCSO agrees to provide for the secure custody, care, and  safekeeping of federal detainees and inmates in accordance with state and local  laws, standards, policies, procedures, or court orders applicable to the  operations of the facility.  The OPCSO  agrees to provide federal detainees, and inmates with the same level of medical  care and services provided local prisoners, including transportation and  security for prisoners requiring removal from the facility for emergency  medical services.  The Orleans Parish  Correction Center’s capacity is approximately 6,500 inmates.  During 2001, approximately 285 federal  detainees and inmates were housed daily at the Orleans Parish Correction  Center.  In 2000, approximately 340  federal detainees and inmates were housed daily at the Orleans Parish  Correction Center.  During this 2-year  period, the INS paid the OPCSO $5,728,886 and the USMS paid $4,345,110. 
The purpose of the audit was to establish a jail day  rate based on allowable 2001 and 2000 historical costs for the detention and  care of inmates under OMB Circular A-87, “Cost Principles for State, Local and  Indian Tribal Government.” Based on our  audit of actual costs and the actual daily population, we determined that the  OPCSO’s actual costs do not support the rates used to bill the Department under  the agreements, and as a result we determined that the: 

OPSCO over-billed the INS $971,225, and the USMS  $779,585 for a total of $1,750,810 for 2001;
OPSCO over-billed the INS $1,312,943, and the  USMS $976,947 for a total of $2,289,890 for 2000; and
INS and the USMS may realize a combined annual  savings of $1,750,810 if the audit determined jail day rate is implemented.

These items are  described in details in the Findings and Recommendations section of the  report.  Our audit scope and methodology  appear in Appendix II.


 

Footnotes

Essentially, a  jail day is the equivalent of one person incarcerated for one day and begins on  the date of arrival, but does not include the date of departure.





 




Return to OIG Home Page